HHS/OIG, Audit - "Review of the Qualified Pension Plan at Blue Cross Blue
Shield of Wyoming, a Terminated Medicare Contractor, for the Period January 1,
1986, to January 1, 2007," (A-07-08-00262)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Qualified Pension
Plan at Blue Cross Blue Shield of Wyoming, a Terminated Medicare Contractor, for
the Period January 1, 1986, to January 1, 2007," (A-07-08-00262)
July 1, 2008
Complete Text of Report is available in PDF format (405 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of Wyoming (Wyoming), a Centers for
Medicare & Medicaid Services (CMS) contractor, did not always comply with
Federal requirements and the Medicare contracts pension segmentation
requirements while updating the Medicare segments assets from the initial asset
allocation to January 1, 2007.  In addition, Wyoming did not comply with the
provisions of its Medicare contracts or the Cost Accounting Standards when
determining Medicares share of the Medicare segment excess pension assets as of
the termination of the Medicare contracts. As a result, Wyoming overstated
Medicares share by $47,000.  Wyoming
administered Medicare Part A
operations under cost reimbursement contracts with CMS until the contractual
relationship was terminated October 31, 2006.  The effective closing date for
the Medicare segment was January 1, 2007.
We recommended that Wyoming (1) decrease Medicare segment
pension assets as of January 1, 2007, by $48,000; (2) decrease Medicares share
of the excess Medicare segment pension assets as of January 1, 2007, by $48,000;
and (3) refund to the Federal Government $70,000, which we calculated to be
Medicares share of the Medicare segment excess pension assets as of the
termination of the Medicare contracts.  Wyoming concurred with our findings and
stated that it will refund $70,000 to the Federal Government.